                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416


                                                                     AUDIT REPORT

                                                              Issue Date: September 25, 2000
                                                              Number: 0-26



To:            Theodore R. Wartell
               Director, Office of Policy



From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit Report-Results Act Performance Measurement for the Surety Bond
               Guarantee Program

      Attached is a copy of the subject audit report. The report contains one finding and three
recommendations.


        The finding in this report is the conclusion of the Office of Inspector General’s Auditing
Division. The finding and recommendations are subject to review and corrective action by your
office in accordance with existing Agency procedures for audit follow-up and resolution. Please
provide your management decision for each recommendation on the attached forms 1824,
Recommended Action Sheet, within 30 days.


       Should you or your staff have any questions, please contact Robert Hultberg, Director,
Business Development Programs Group at (202) 205-7204.


cc: Robert Moffitt, Associate Administrator, Office of Surety Guarantees
                     RESULTS ACT PERFORMANCE MEASUREMENT
                                    FOR THE
                        SURETY BOND GUARANTEE PROGRAM

                                 AUDIT REPORT NUMBER 0-26

                                       SEPTEMBER 25, 2000




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.




                                                    2
                                         AUDIT REPORT
                            RESULTS ACT PERFORMANCE MEASUREMENT
                                           FOR THE
                               SURETY BOND GUARANTEE PROGRAM

                                                        Table of Contents

                                                                                                                        Page

SUMMARY........................................................................................................................i

INTRODUCTION

          A. Background ........................................................................................................1

          B. Objectives and Scope ........................................................................................1

RESULTS OF AUDIT

Finding and Recommendations...........................................................................................3

Performance Goals and Indicators Need to be Developed

     •    Performance indicators do not measure program purposes ....................................3
     •    Needed performance indicators are omitted ...........................................................4
              ο The program lacks program outcome; service quality; and
                 cost indicators .............................................................................................4
     •    SBG performance indicator data is reliable ............................................................5
              ο Improvement in data collection ..................................................................5
              ο Improvements in the presentation of performance data..............................6

Recommendations...............................................................................................................6

APPENDICIES

          A- Definitions
          B- SBA Management’s Response
          C- Audit Report Distribution
                                          SUMMARY

         In 1998, Congressional leaders requested that Inspectors General review how
effectively their agencies are measuring performance under the Government Performance and
Results Act of 1993 (Results Act) and the reliability of the underlying data. In response to these
requests, the Office of the Inspector General initiated a series of audits to evaluate the
performance indicators the Small Business Administration (SBA) developed for its major
programs. This report examines whether the Surety Bond Guarantee (SBG) program meets the
performance measurement requirements of the Results Act.

        In enacting the Results Act, Congress intended to improve the efficiency and
effectiveness of Federal programs by establishing a system to set goals for program performance
and to measure results. To implement the Act, executive agencies must prepare multiyear
strategic plans, annual performance plans that include performance indicators, and performance
reports. SBA’s Office of Policy (OP) has overall responsibility for implementation of the
Results Act for all SBA programs. SBG program performance measures were developed by the
Office of Surety Guarantees (OSG) based on direction provided by OP. To answer the objective
of whether the SBG program meets the performance measurement requirements of the Results
Act, we determined if: (1) program goals and indicators align with the mission, (2) performance
indicators focus on the results of the program in terms of efficiency and effectiveness, and (3)
reliable supporting data exists.

        We found that the SBG program does not have performance goals and indicators to show
that the program is meeting the intended purposes of the authorizing legislation. The
performance indicators listed in SBA’s Fiscal Year (FY) 2000 and 2001 Annual Performance
Plans are activity-oriented and do not address Results Act priorities such as programmatic
outcomes, service quality, or cost. While the performance data was reliable, we identified a few
areas for improvement in data collection and presentation.

       We recommend that the Director, Office of Policy in conjunction with the Associate
Administrator, Office of Surety Guarantees ensure: (1) SBG program goals include program
outcomes, service quality, and program costs, as appropriate; (2) SBG program indicators reflect
the goals; and (3) SBG performance data is complete and accurately presented. SBA
management agreed with the finding and recommendations.




                                                 i
                                      INTRODUCTION
A. Background
        In 1993, Congress passed the Results Act with the objective to improve Federal program
effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. The Results Act is intended to improve the efficiency and effectiveness of
Federal programs by establishing a system to set both long-term strategic and annual goals for
program performance and to measure results. Performance indicators are values or
characteristics used to measure results associated with annual goals and are an integral part of
annual performance plans and reports. The Results Act requires agencies to prepare annual
reports on their performance for the previous fiscal year.

        The SBG program implements Part B of Title IV of the Small Business Investment Act
of 1958, as amended. Congress created the program to help small businesses that have trouble
getting bonds without a government guarantee. SBA guarantees bonds written by private sureties
to make bonding more easily available to small businesses. Congress intended that long-run
advantages would be gained by helping disadvantaged contractors enter the mainstream of the
economic system and thereby be able to establish the required “track record” of successful
performance ordinarily required by private surety companies, when it enacted the Housing and
Urban Development Act of 1970. This was based on evidence that new, small, or minority-
owned construction firms had trouble getting bonds.

        For FY 1999, 34 surety bonding companies carried out the program. Sureties participate
in the Prior Approval (PA) or Preferred Surety Bond (PSB) programs. In the PA program, SBA
must approve each surety bond guarantee agreement. In the PSB program, sureties are
authorized to issue, monitor, and service bonds without SBA’s prior approval. SBA reported in
the FY 1999 Annual Performance Report that it guaranteed 9,399 bonds and PSB sureties wrote
$170 million in surety bonds. SBA reported in the FY 2000 Annual Performance Plan that it
expects to guarantee 14,700 bonds and PSB sureties to write $175 million in surety bonds. The
number of bonds expected to be issued in FY 2000 was later reduced from 14,700 to 9,500 in the
FY 2001 Annual Performance Plan.

B. Objectives and Scope

       This report examines whether the SBG program meets the performance measurement
requirements of the Results Act. To fulfill this objective, we sought answers to three basic
questions. Do the program’s goals and performance indicators align with its mission? Do the
performance indicators show the results of the program in terms of efficiency and effectiveness?
How reliable is the supporting data?

       To answer the mission alignment question, we reviewed the FY 2000 and 2001 Annual
Performance Plans. We developed a logic model to identify the relationships between the
mission and purpose of the SBG program, its core business processes, key products, and desired
program outcomes. To evaluate the extent to which the performance goals and indicators
aligned with the statutory mission, we compared the goals and indicators to each aspect of the


                                                1
mission to ensure that all aspects were addressed. If there was not a performance goal and
indicator for an aspect of the mission we considered this an area for improvement.

       To determine whether the performance indicators addressed the Results Act requirements
(program effectiveness and efficiency), we segregated the performance indicators into the
following categories:

       •   Outcomes
       •   Service quality
       •   Cost
       •   Output/process

If a category did not have at least one performance indicator, we considered this an area for
improvement.

        To determine whether SBG performance indicators were supported by reliable data, we
traced reported performance measurement data for FY 1999, back to supporting documents in
the Office of Surety Guarantees, four PSB sureties and one SBG area office. We analyzed the
underlying data to determine whether it was sufficient, relevant, complete, accurate, and
consistently obtained over time.

       Fieldwork was performed from December 1999 through May 2000. The audit was
performed in accordance with generally accepted Government Auditing Standards. The outside
consulting firm, Results, Inc., was retained to assist us in the audit.




                                                2
                                         RESULTS OF AUDIT

FINDING: PERFORMANCE GOALS AND INDICATORS NEED TO BE DEVELOPED

        The SBG program did not have performance indicators linked to its intended purpose in
the statutes. The indicators measured outputs rather than outcomes. Outputs measure the level
of activity or effort that was realized. Outcomes assess the actual results, effects, or impact of a
program activity compared to its intended purpose. Additionally, the program did not have
service quality and cost indicators. While the performance data was reliable, we identified a few
areas for improvement in data collection and presentation.

          The SBG performance measures resulted from a joint effort of OP and OSG. OP has
overall responsibility for implementation of the Results Act within SBA. OP requested OSG to
develop performance measures for the SBG program and met with OSG to discuss information
needed for the SBA annual performance plans. OP accepted the performance measures
developed by OSG and included them in the FY 2000 and 2001 Annual Performance Plans.
These performance measures are shown in the table below. We found that these performance
measures did not comply with the Results Act requirements in the following areas.

Performance indicators do not measure program purposes

        The Results Act sought to improve congressional decision-making by obtaining more
information on the extent to which agencies were achieving statutory objectives. To provide this
information, agencies need performance goals and indicators that reflect the purposes established
in each program’s enabling statutes. Office of Management and Budget (OMB) guidelines state
that performance goals and indicators should be centered on a program’s core purpose.

       The SBG program’s purpose intended by the statutes is to assist new, small, or minority-
owned businesses obtain bonding that is not available without a government guarantee. Also, the
program is designed to help contractors establish a job track record to enable them to obtain
bonding without a government guarantee. For FY 2000 and 2001, the SBG program has the
following goals and indicators:

                                      2000                                          2001
     Goal           - Increase the number of surety bonds         - Issue 10,000 surety bonds

     Indicator(s)   - Number of bonds issued to contractors       - Number of bonds issued to contractors
                    - Dollar amount of bonds issued by sureties
                    - Number of participating surety companies

         These performance goals and indicators do not show that the program is fully achieving
its intended purposes. More specifically, the goals and indicators do not identify the number of
companies assisted and whether new and minority-owned companies are assisted. Also, the
performance goals and indicators do not address whether contractors that receive SBA bonds
establish the required track record to successfully obtain bonding in the long term without a
government guarantee.


                                                       3
        OSG program officials stated that although these numbers are not separately reported in
the performance plans, the program provides bonds to new and small businesses and collects
data on bonds made to minority-owned companies. OSG would like to increase outreach and
marketing efforts, but has not received the requested funding. Another problem is that District
Offices’ internal performance goals do not contain specific goals to help new and minority
businesses obtain bonding. Additionally, SBG officials remarked that it is difficult to measure a
contractor’s success in obtaining bonding after they have left the program.

Needed performance indicators are omitted
        The Results Act provides information to agencies about the types of performance
indicators they need to develop to effectively implement the Act. As evidenced by the legislative
history for the Results Act, Congress believes that an Agency should develop a range of
performance indicators including:

    •   outcome indicators linked to statutory objectives, the underlying purposes of a program;
    •   service quality indicators designed to provide information on the quality of services
        provided, as well as on the manner in which they are delivered; and
    •   cost indicators to tell how efficiently a program is operating.

A recent GAO report evaluating SBA's FY 2000 Annual Performance Plan faulted the plan's
continuing focus on outputs rather than outcomes for all SBA programs.1 Our analysis of the
SBG program reached similar conclusions because the program’s goals and indicators are also
focused on outputs.

The program lacks program outcome; service quality; and cost indicators

        The SBG program has three performance indicators for FY 2000 to be used to gauge
program success under the Results Act (see table on page 3). All of them relate to activities of
the program, but none of them address performance indicators such as program outcomes,
service quality, or cost.

         Program outcome indicators provide information about how well a program is
accomplishing the purposes that it was given the responsibility and resources to achieve. For
SBG, an example of an intermediate outcome would be the contract opportunities the program
provides to new, small, and minority-owned businesses. The end outcome would be the impact
that this assistance has on the development of the small businesses, e.g. businesses become
bondable without an SBA guarantee.

        Service quality indicators include measures of complaints, customer satisfaction levels,
and responsiveness rates. An example of a service quality indicator would be the percentage of
positive comments from a customer survey or Internet feedback site. Another service quality
indicator would be a comparison of elapsed times for approving a bond against a set standard in
the SBG program. SBG program officials stated that they have instituted measures to receive

1
  Managing for Results- Opportunities for Continued Improvement in Agencies' Performance Plans,
(GAO/GGD/AMID-99-215, July 1999)

                                                      4
feedback from their partners, but do not report the results as a performance indicator. In
addition, they do not solicit feedback directly from the small business assisted, but periodically
assess the delivery of quality services to customers through audits and reviews of their partners.

        Cost indicators measure the efficiency of program operations. In its report on the Results
Act, the Senate Committee on Governmental Affairs stated that the indicators of unit cost are
those most useful to agency staff in managing programs, rather than simply those indicators
developed for financial management. 2 The Committee also expected agencies to assign high
priority to the development of unit cost indicators. OSG program officials stated that while they
do not have any cost indicators, the program is cost effective. Program fees, recoveries and
refunds collected from the sureties and contractors at least cover claims paid. Although the
program is cost effective overall, that does not eliminate the need for cost type performance
indicators. The purpose of these indicators is to create a continuing focus on controlling costs
over time. As envisioned under the Results Act, cost goals and indicators would allow the
program to demonstrate its cost effectiveness and identify areas where further improvements are
possible.

         Congress recognizes that not all programs can have objective and quantifiable
measurements. OMB may authorize an alternative form of measurement for programs where it
is difficult to develop objective and quantifiable measurements. For programs where it may be
impractical or infeasible to set performance measurements, OMB may authorize the agency to
provide a brief explanation in the performance plan as to why this is the case.

SBG performance indicator data is reliable

        While the performance data was reliable, we identified a few areas for improvement in
data collection and presentation.

Improvement in Data Collection

        Data collection should be improved to ensure the data is complete. The Management
Information Summary (MIS) report, identified by the SBG program as the source of performance
data, shows the number and dollar amount of bonds guaranteed by the program based on when a
bond is reported to SBA. In the PSB program, a bond can be reported to SBA up to 10 days after
the bond is effective. Accordingly, incomplete data results when bonds executed during the last
month of the fiscal year are not reported to SBA and captured in the performance data until the
next fiscal year. For three PSB sureties reviewed, we tested 27 of 140 bonds reported as
executed during the first fifteen days of FY 1999, and found that 9 bonds had been executed in
FY 1998.

       OSG program officials stated that they made a management decision to collect the
performance data in this manner. The bonds are counted in the fiscal year they are reported to
SBA because this is when SBA’s guarantee is effective and when the allotment is reduced for the


2
 Report of the Committee on Governmental Affairs United States Senate to Accompany S. 20, 103rd Congress,
Report 103-58, June 16, 1993, page 30.

                                                      5
amount of the bond in the accounting system. Also, from one fiscal year to the next, the net
effect of the timing difference is zero.

Improvements in the Presentation of Performance Data

        Presentation of performance data should be improved to insure the data is not misleading
to readers of the performance plans and reports. We found that the FY 1999 Annual
Performance Report stated that the number of bonds issued to contractors as a result of the
program was 9,399 and the dollar amount of bonds written in the PSB program was $170M. The
data, however, was not labeled to indicate that the number of bonds represented both the PSB
and PA surety bond programs. To provide consistency among the numbers and show the total
resources provided to small business concerns, the amount of bonds written should be shown for
both programs. In addition, the number that was reported as the dollar amount of bonds written
in the PSB program is actually the dollar value of contracts that were bonded in the program.
Accordingly, future performance data should be clearly labeled to reflect the performance
represented.

       We also found that cancelled final bonds are being included in the performance data for
both the number and amount of bonds written. For FY 1999, 30 final bonds of the 9,399 bonds
guaranteed had been cancelled. Accordingly, although the performance data accurately reflects
program activity, it does not represent the actual resources and benefits provided to the small
businesses. Therefore, performance data should be clearly labeled to reflect the performance
represented.

       Additionally, bond increases made in FY 1999, to bonds executed in prior years, are
captured in the performance data for the amount of bonds written in the program. For FY 1999,
there was thirteen million dollars of these bond increases. Therefore, the performance indicator
should state that the number reported includes both the dollar amount of bonds written during FY
1999 and bond increases made to bonds executed in prior years.

RECOMMENDATIONS

       To improve the implementation of the performance measurement requirements of the
Results Act for the SBG program, SBA should develop new performance goals and indicators.

      We recommend that the Director, Office of Policy in conjunction with the Associate
Administrator, Office of Surety Guarantees ensure:

      1A. SBG program goals include program outcomes, service quality and program costs, as
          appropriate;

      1B. SBG program indicators reflect these goals; and

      1C. SBG performance data is complete and accurately presented.




                                                6
MANAGEMENT’S RESPONSE

         The Director, Office of Policy and the Associate Administrator, Office of Surety
Guarantees agreed with the audit finding and recommendations and stated that they will work
together to improve program performance measurement. See Appendix B for the full text of the
response.

EVALUATION OF MANAGEMENT’S RESPONSE

The comments provided by SBA management are responsive to our recommendations.




                                              7
                                                                                   Appendix A


                                          Definitions

Outcomes - the results of a program activity compared to its intended purpose.

Outputs - the tabulation, calculation, or recording of activity or effort and can be expressed
in a quantitative or qualitative manner.

Performance goal - a target level of performance expressed as a tangible, measurable
objective against which actual achievement can be compared, including a goal expressed as a
quantitative standard, value, or rate.

Performance indicator - a particular value or characteristic used to measure output or
outcome.
                                                                                        2
                                                                               Appendix B
Discussion

        The Results Act directs Federal agencies to develop and implement performance
measures in order to manage their programs for results. The Act specifically suggests
measuring outcomes, service quality, cost, and outputs.

           Outcomes – A common problem with measuring outcomes is that these might be the
result of several programs acting together or even be the result of external factors. Therefore
it is important to analyze what outomce measures are meaningful at the program level and
what are meaningful at the agency level where program interactions can be handled. In fact
this is a general problem for many of SBA’s programs.

         Service quality – Generally a relevant measure. However, in the case where SBA
does not provide a direct service and the bond company provides the bond to the contractor
with or without an guarantee, it is hard to see how relevant this type of measure would be.

         Cost – Captured in SBA’s new activity based costing system which should provide
costs by activity. As outputs can be associated with activities it should be possible to
determine units costs for most of SBA’s programs in the future. Previously this capacity was
not available.

         Output/process – The SBG program only has output/process measures in its internal
information system and in the Annual Performance Report. This measure, however, is
needed to calculate unit costs as well as an indicator of program activity levels.

Specific Findings and comments

The OIG’s Draft Audit has three findings for the Surety Bond Program:

•   Performance indicators do not measure program purposes

•   Needed performance indicators are omitted

•   Surety Bond Guarantee performance indicator data is reliable


And recommends that SBA should develop new performance goals and indicators, ensuring
that

•   SBG program goals include program outcomes, service quality and program costs, as
    appropriate

•   SBG program indicators reflect these goals, and

•   SBG performance data is complete and accurately presented
                                                                            Appendix B


Action to be taken

       The Policy Office and Office of Surety Guarantees agree with the findings and
recommendations of the IG report and will work together to improve program performance
measurement.

         Going forward, the Office of Policy and the Office of Surety Guarantees have
agreed to work together to:

1. Improve the measures to be used in the Annual Performance Plan for FY 2002.

2. Develop a set of performance measures to be used by the program office to manage for
   results, including some program outcomes, service quality and program costs, as
   appropriate.

3. Determine what changes need to be made to current data collection and information
   systems.
                                                                                                                  Appendix C


                                             Audit Report Distribution


Recipient                                                                                                              Number

Administrator .............................................................................................................1

Deputy Administrator ................................................................................................1

Associate Deputy Administrator for Capital Access .................................................1

Financial Administrative Staff...................................................................................1
 Attention: Jeff Brown

General Counsel.........................................................................................................2

General Accounting Office………………………………………………………….1
Appendix B
